ES, IG-99-009, Space Station Contingency Planning for International Partners
SPACE STATION
CONTINGENCY PLANNING
FOR INTERNATIONAL PARTNERS
IG-99-009
Executive Summary
Background.  The International Space Station (the Space Station)
Program Office (the Program Office) is responsible for building and
operating the Space Station and for ensuring that it is safe, productive,
affordable, and on schedule.  A 1998 agreement
(1) between NASA and each of the
Space Station international partners
(2) established the international partner
contributions and levels of participation.  Under the Space Station
Agreement, the international partners agreed to provide and support critical
Space Station hardware and functions that include guidance, navigation,
control, propulsion, life support, extravehicular robotics, crew rescue
capability, research modules and pressurized and unpressurized logistics
resupply.  Because the Space Station Program depends on timely and reliable
performance and support from the international partners, adequate plans must
exist to respond to international partner contingencies that could
jeopardize Space Station survival and successful assembly.
Objectives.  The overall objective was to determine whether NASA
had developed adequate plans for international partner contingencies that
present risks to the Space Station Program.  Specific objectives were to
determine whether NASA had identified significant international partner
contingencies and had developed adequate plans to prevent and/or mitigate
them.  Also, we determined whether NASA was effectively updating and
revising its contingency plans.  Details on the objectives, scope, and
methodology used for this audit are in Appendix A.
Results of Audit.  The Space Station Program Office had developed
a draft "International Space Station Program: Overview of Contingency Plans"
(the Program contingency plan).  A section of the plan identified 14
critical international partner contingencies (see Appendix B) that could
cause a serious threat to Space Station assembly and operations.  However,
this section of the Program contingency plan did not include or clearly
identify several critical elements for effective risk management, as
required by Agency guidance.  Specifically, the plan did not contain cost
and schedule impacts and did not clearly identify mitigation measures and
primary consequences of the contingencies.  Further, the Program Office did
not have a process that ensured the contingency plan was kept current.
Specifically, the Program plan did not include some actions being taken to
prevent further Russian delays.  Also, the contingency plan did not address
the Year 2000 computer problem.
(3)  Until the Program contingency plan is
complete, NASA cannot fully reduce Space Station risks through advance
planning and the establishment of response plans.  Further, without
estimated costs, the Agency, the Administration, and the Congress cannot
adequately assess the feasibility of proposed responses or determine
budgetary impact.
Recommendations.  NASA should establish procedures to ensure the
Program contingency plan complies with Agency guidance for effective risk
management and establish a process to ensure the contingency plan is kept
current.
Management's Response.  Management concurred with the intent of
the recommendations and stated it was fully complying with NASA Procedures
and Guidelines (NPG) 7120.5A, "NASA Program and Project Management Processes
and Requirements," April 3, 1998, through its Space Station Risk Management
System, which, by extension, includes the contingency plan.  Management
agreed to include risk mitigation measures, consequences, and schedule
impacts in future updates to the contingency plan and to implement regular
reviews and updates to the plan.  However, detailed cost would be maintained
in a separate table rather than in the plan because the cost data is
sensitive information.  Further, the Year 2000 issue would not be included
in the plan because it is a design issue and the plan is intended to cover
assembly and operations issues.  In addition, management did not specify in
the contingency plan actions to prevent further Russian delays, such as
Space Shuttle Orbiter modifications and the $60 million Russian contract,
because those actions had not yet been finalized.
Evaluation of Response.  Management's planned actions are
responsive to include risk mitigation measures, consequences, and schedule
impacts in the contingency plan and to conduct regular reviews and keep the
contingency plan current.  In addition, management's alternative plan to
maintain cost information in a separate table is responsive.  However, the
Program contingency plan does not comply with NPG 7120.5A as a result of the
stated compliance of the Space Station Risk Management System
(4) because, as
management acknowledged, the Program contingency plan contains scenarios not
found in the Risk Management System.  Further, management's decision to
exclude from the contingency plan the Year 2000 issue and the planned
actions to prevent further Russian delays is not responsive.  Therefore, we
request that management further review its position on these matters and
provide additional comments.
FOOTNOTES
1. NASA and the international partners signed an agreement
concerning cooperation on the International Space Station in Washington, D.C.,
on January 29, 1998.
2. The Space Station international partners are the Russian
Space Agency, the Canadian Space Agency, the National Space Development
Agency of Japan, the European Space Agency, the Italian Space Agency, and the
Brazilian Space Agency.
3. The Year 2000 problem relates to the potential problems
that might occur with computer hardware and software that need to correctly
interpret year-date data represented in 2-digit-year format.  If the causing
problem is not corrected, critical computer systems could malfunction or
produce incorrect information causing costly delays or safety problems.
4. Although we obtained an understanding of the Risk
Management System, our audit objective was not to determine whether the
Space Station Risk Management System complied with NPG 7120.5A, but to
determine the adequacy of plans for international partner contingencies that
present a risk to the Space Station Program.
Rev. 3/16/99